No. 20-1639
444444444444444444444444444444444444444444
IN THE

Supreme Court of the United States
____________________

GEORGE K. YOUNG, JR., Petitioner,
v.
HAWAII, ET AL., Respondents.
____________________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
____________________
Brief Amicus Curiae of
Gun Owners of America, Inc.,
Gun Owners Foundation,
Heller Foundation,
Virginia Citizens Defense League,
Conservative Legal Defense and Education
Fund, and Restoring Liberty Action Committee
in Support of Petitioner
____________________

*Counsel of Record

WILLIAM J. OLSON*
ROBERT J. OLSON
JEREMIAH L. MORGAN
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae
June 24, 2021

444444444444444444444444444444444444444444

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . iii
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . 2
SUMMARY OF ARGUMENT. . . . . . . . . . . . . . . . . . . . . . 5
ARGUMENT
I.

The En Banc Decision Used the Judicial
Legerdemain of the Two-step Test to Rule that
Bearing Arms Is Not Protected by the Second
Amendment . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

II. Hawaii’s Carry Ban Is, Indeed, “Longstanding,”
Dating to the Islands’ Time as a Monarchy,
When Sovereign Kings and Queens Denied Their
Subjects Access to Arms . . . . . . . . . . . . . . . . . 10
III. The Petition Raises an Important Issue Not
Being Addressed in New York State Rifle &
Pistol Association v. Corlett . . . . . . . . . . . . . . 13
IV. Four Sitting Justices and Other Judges Have
Affirmed the Protections Afforded by the Second
Amendment and Expressed Dissatisfaction with
the Two-Step Test Employed Below . . . . . . . . 15
A. Criticism of the Two-Step Test by Supreme
Court Justices . . . . . . . . . . . . . . . . . . . . . . 16

ii
B. Criticism of the Two-Step Test by Lower
Court Judges . . . . . . . . . . . . . . . . . . . . . . . 20
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

iii
TABLE OF AUTHORITIES

Page

CONSTITUTIONS
U.S. Constitution, Amendment II . . . . . . . . 3, passim
HRS Const. Art. I, § 17 . . . . . . . . . . . . . . . . . . . . . 13
Kingdom of Hawaii Constitution of 1840 . . . . . . . 11
STATUTES
18 U.S.C. § 922 . . . . . . . . . . . . . . . . . . . . . . . . . 20, 21
HRS section 134-9 . . . . . . . . . . . . . . . . . . . . . . . . . . 2
CASES
District of Columbia v. Heller, 554 U.S.
570 (2008). . . . . . . . . . . . . . . . . . . . . . . . 3, passim
Fisher v. Kealoha, 855 F.3d 1067
(9th Cir. 2017) . . . . . . . . . . . . . . . . . . . . . . . . . 20
Friedman v. City of Highland Park,
577 U.S. 1039 (2015) . . . . . . . . . . . . . . . . . . . . 17
Heller v. District of Columbia, 670 F.3d 1244
(D.C. Cir. 2011) . . . . . . . . . . . . . . . . . . . . . . . . 17
Houston v. City of New Orleans, 675 F.3d 441
(5th Cir. 2012) . . . . . . . . . . . . . . . . . . . . . . . . . 21
Jackson v. City & Cnty. of San Francisco,
576 U.S. 1013 (2015) . . . . . . . . . . . . . . . . . . . . 16
Mance v. Sessions, 896 F.3d 390
(5th Cir. 2018) . . . . . . . . . . . . . . . . . . . . . . . . . 22
McDonald v. City of Chicago, 561 U.S.
742 (2010). . . . . . . . . . . . . . . . . . . . . . . . 3, passim
New York State Rifle & Pistol Association v.
New York, 140 S. Ct. 1525 (2020) . . . . . . . . . . 20
NRA v. BATFE, 714 F.3d 334 (5th Cir. 2013). . . . 21
Peruta v. California, 137 S. Ct. 1995 (2017) . . . . . 18

iv
Peruta v. Cnty. of San Diego, 824 F.3d
919 (9th Cir. 2016) . . . . . . . . . . . . . . . . . . . . 4, 12
Rogers v. Grewal, 140 S. Ct. 1865 (2020) . . . . . . . 19
Silvester v. Becerra, 138 S. Ct. 945 (2018) . . . . . . 19
State v. Mendoza, 920 P.2d 357 (Ha. 1996) . . . . . 12
MISCELLANEOUS
A. Rostron, “Justice Breyer’s Triumph in the Third
Battle over the Second Amendment,”
80 GEO WASH. L. REV. 703 (2012) . . . . . . . . . . 18
Declaration of Independence . . . . . . . . . . . . . . . . . 12
D. Trotta, “Unlikely pair could usher gun rights
case to U.S. Supreme Court,” Reuters
(Aug. 8, 2018) . . . . . . . . . . . . . . . . . . . . . . . . . . 13
J. Greenspan, “Hawaii’s Monarchy Overthrown
with U.S. Support, 120 Years Ago,”
History.com (Jan. 17, 2013) . . . . . . . . . . . . . . . 11
“Odd Fighting Units: The Honolulu Rifles
during the Hawaii Rebellions, 1887-1895,”
Brainexplor Blog . . . . . . . . . . . . . . . . . . . . . . . 11
“July 6, 1887: Bayonet Constitution,” National
Geographic . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

INTEREST OF THE AMICI CURIAE1
Gun Owners of America, Inc. and Virginia Citizens
Defense League are nonprofit social welfare
organizations, exempt from federal income tax under
Internal Revenue Code (“IRC”) section 501(c)(4). Gun
Owners Foundation, Heller Foundation, and
Conservative Legal Defense and Education Fund are
nonprofit educational and legal organizations, exempt
from federal income tax under IRC section 501(c)(3).
Restoring Liberty Action Committee is an educational
organization.
Amici organizations were established, inter alia,
for the purpose of participating in the public policy
process, including conducting research, and informing
and educating the public on the proper construction of
state and federal constitutions, as well as statutes
related to the rights of citizens, and questions related
to human and civil rights secured by law.
Several of these amici also filed an amicus brief in
this case on November 19, 2018 during en banc
proceedings in the Ninth Circuit, as well as amicus
briefs in unsuccessful efforts to urge this Court to
review earlier Ninth Circuit Second Amendment
rulings, including:

1

It is hereby certified that counsel for Petitioner and for
Respondents have consented to the filing of this brief; that counsel
of record for all parties received notice of the intention to file this
brief at least 10 days prior to its filing; that no counsel for a party
authored this brief in whole or in part; and that no person other
than these amici curiae, their members, or their counsel made a
monetary contribution to its preparation or submission.

2
• Mai v. United States, U.S. Supreme Court No.
20-819, Brief Amicus Curiae of Gun Owners of
America, Inc. et al. (January 19, 2021);
• Rodriguez v. City of San Jose, U.S. Supreme
Court No. 19-1057, Brief Amicus Curiae of Gun
Owners of America, Inc. et al. (May 20, 2020);
• Peruta v. California, U.S. Supreme Court No.
16-894, Brief Amicus Curiae of Gun Owners of
America, Inc., et al. (February 16, 2017); and
• Jackson v. San Francisco, U.S. Supreme Court
No. 12-17803, Brief Amicus Curiae of Gun
Owners of America, Inc. et al. (July 3, 2014).
STATEMENT OF THE CASE
The State of Hawaii has some of the most
draconian firearms laws in the country, requiring that
firearms be kept in the owner’s “place of business,
residence, or sojourn,” with a few limited exceptions to
transport firearms in a closed container. Petition for
Certiorari (“Pet. Cert.”) at 4.
Neither open nor concealed carry is permissible
without obtaining a license which requires the
applicant demonstrating to the chief of police highly
unusual circumstances — much more than a desire for
effective self-defense. A concealed carry permit
requires “an exceptional case” and “reason to fear
injury.” No open carry is permissible without a
showing of “urgency” and a sufficient “need.” Even
then, for both cases, the decision is left to the chief of
police under “may issue” provisions. HRS section 1349. Although these statutory standards for licensing
may give the appearance that Hawaii has a licensing

3
scheme which provides meaningful exceptions to the
ban, in practice they function as a thin veneer
concealing a near total ban on bearing arms in the
entire State of Hawaii. In fact, “[T]he statute has been
used to deny all permit applications during the nine
years this case has been in litigation.” Pet. Cert. at 1.
Petitioner brought a Second Amendment challenge
to the Hawaii state statute restricting the carrying of
firearms in the U.S. District Court for the District of
Hawaii. In spite of this Court’s decisions in District of
Columbia v. Heller, 554 U.S. 570 (2008) and McDonald
v. Chicago, 561 U.S. 742 (2010) the district court
concluded that the Second Amendment only protects at
its “core” the right of law-abiding responsible citizens
to use arms in defense of hearth and home. Young v.
Hawaii, 911 F. Supp. 2d 972, 988-89 (D. Ha. 2012).
While the court believed those cases did not foreclose
the possible existence of a Second Amendment right
outside the home, the court found that issue was
rendered uncertain by those decisions. The district
court followed the Ninth Circuit’s two-step interest
balancing test and concluded that, since “Heller and
McDonald establishes only a narrow individual
right to keep an operable handgun at home for selfdefense,” a challenge to carrying outside the home was
outside the Second Amendment, thus not requiring
the court to proceed to the second part of that two-step
test. The district court did not appear to base this
conclusion on the longstanding nature of the
challenged restriction, but simply that bearing arms
did not fall within the core of the constitutional right.
See Young, 911 F. Supp. 2d at 989 (emphasis added).

4
Petitioner appealed the district court’s order to the
Ninth Circuit, which reversed and sided with
Petitioner in a split opinion. See Young v. Hawaii, 896
F.3d 1044 (9th Cir. 2018) reh’g en banc granted, 915
F.3d 681 (9th Cir. 2019). The panel viewed the Ninth
Circuit’s en banc decision in Peruta v. County of San
Diego, 824 F.3d 919 (9th Cir. 2016) (en banc), which
upheld a concealed carry licensing scheme, as
foreclosing consideration of such a challenge. See
Young, 896 F.3d at 1050. However, with respect to the
challenge to the open carrying licensing scheme, the
panel, after applying the two-step test (id. at 1051),
concluded that, under Heller and McDonald, “the right
to bear arms must guarantee some right to self-defense
in public.” Id. at 1068.
With Peruta having taken the concealed carry
issue off the table, the panel ruled “we are satisfied
that the Second Amendment encompasses a right to
carry a firearm openly in public for self-defense,” and
therefore the Hawaii statute “burdens conduct
protected by the Second Amendment.” Id. at 1068.
Then, viewing “the core purpose of the Second
Amendment as self-defense” and that “‘bear’[ing]
effectuates such core purpose of self-defense in public
... the right to carry a firearm openly for self-defense
falls within the core of the Second Amendment.” Id. at
1070. In dissent, Judge Clifton concluded that, since
the statute does not infringe on a core portion of the
Second Amendment right, he would have applied
intermediate scrutiny and upheld the ban. Id. at 108082.

5
Thereafter, the Ninth Circuit granted rehearing en
banc and vacated the panel decision and, as the panel
had done, addressed on review only the right to carry
arms openly in public. The en banc court affirmed the
district court dismissal of the challenge by a vote of 7
to 4, over two vigorous dissents. Young v. Hawaii, 992
F.3d 765 (9th Cir. 2021) (en banc). The Court’s
reasoning in its en banc opinion is analyzed infra.
SUMMARY OF ARGUMENT
Petitioner seeks this Court’s review of the Ninth
Circuit en banc decision upholding a Hawaii statute
imposing a virtual ban on carrying firearms outside
the home for self-defense. Having previously held that
“individuals do not have a Second Amendment right to
carry concealed weapons in public” the Ninth Circuit
had no problem denying a challenge to Hawaii’s near
total ban on open carry. Young, 992 F.3d at 773. The
Ninth Circuit explained that it was joining the
majority of circuits that had considered the issue of
open carry, which it characterized as “a question that
has divided the circuits....” Id. at 784. Moreover, in
rejecting Petitioner’s challenge, the en banc court took
the extreme view that since “Hawai’i’s restrictions on
the open carrying of firearms reflect longstanding
prohibitions ... the conduct they regulate is therefore
outside the historical scope of the Second
Amendment.” Id. at 773. Petitioner explained that
this position is different from that of the First, Second,
Third, and Fourth Circuits which “have either held or
assumed that the Second Amendment right extends
outside the home...” even while allowing it to be
restricted. Pet. Cert. at 1-2.

6
The method by which the Ninth Circuit reached its
decision is likewise flawed. The two-step test allows
any reviewing court to circumvent a determination as
to whether a challenged statute is unconstitutional
just because it has been unconstitutional for a long
while. The two-step test is deeply flawed, raising an
important federal constitutional issue at variance with
the Second Amendment, and in conflict with this
Court’s decisions in Heller and McDonald. As this
Court’s review of the Second Circuit’s New York State
Rifle and Pistol Association decision raises only a
licensing issue, it appears unlikely that the Court in
that case will reach either the scope of the right to
bear arms outside the home for self-defense, or the
folly of the two-step test. Both issues are at issue here.
Even if an unconstitutional statute could be said to
attain constitutionality by longevity, surely the fact
that it was enacted when Hawaii was a kingdom, and
under the control of outside forces desiring to limit the
ability of the people to resist them, should undermine
any such argument.
Lastly, the two-step test used by the Ninth Circuit
to invalidate the constitution’s protection for “bearing
arms” has been criticized by no fewer than four sitting
Justices, and this case provides an excellent vehicle to
restore order in the lower courts.

7
ARGUMENT
I.

THE EN BANC DECISION USED THE
JUDICIAL LEGERDEMAIN OF THE TWOSTEP TEST TO RULE THAT BEARING ARMS
IS NOT PROTECTED BY THE SECOND
AMENDMENT.

The en banc decision of the Ninth Circuit
concluded that the Hawaii statute was a longstanding
prohibition that was outside the historical scope of the
Second Amendment and thus never needed to reach
step two of that Circuit’s two-step test. Young, 992
F.3d at 772. By employing the two-step test and
examining only historical sources without any analysis
of the text itself, the majority opinion was able to
circumvent the constitutional text which guarantees
the right to “bear” arms, and was able to undermine
the Heller and McDonald decisions by treating a
“longstanding” restriction as conclusively presumed to
be constitutional. By the end of its opinion, the en
banc court was able to ignore the text and justify a
near plenary ban on the “right to ... bear arms” on the
theory that historically the Amendment did not protect
bearing arms.
The two dissenting opinions eviscerated the en
banc opinion in all respects. In dissent, on behalf of all
four dissenting judges, Judge O’Scannlain concluded
that the Hawaii statute completely destroyed, as in
Heller, a Second Amendment right — rendering the
right to carry (“bear”) a firearm for self-defense outside
the home “to a mere inkblot.” Id. at 829. He also
exposed the soft underbelly of the majority’s historical

8
analysis. The dissent concluded that the statute was
unconstitutional under any level of scrutiny. See id. at
861.
Judge Nelson’s dissent endorsed the O’Scannlain
dissent and was joined in by the other dissenting
judges, but Judge Nelson chose to write “separately to
highlight the brazenly unconstitutional County of
Hawaii Regulations...” implementing the statute. Id.
at 861. Judge Nelson agreed with the O’Scannlain
dissent that the Hawaii statute was facially
unconstitutional, but he then added his view that the
statute should have been ruled to be unconstitutional
as applied. See id. at 861.
The dissenting judges had the better of the
argument, by far. The Heller decision never stated
that any and all longstanding restrictions are always
valid. Rather, Justice Scalia made reference to certain
— not all — longstanding restrictions not at issue in
the case as being “presumptively lawful.” See Heller
at 625-27, 627 n.26. Of course, all statutes are
presumptively lawful until those who challenge them
establish that they are unconstitutional. However,
under the two-step test, challenges are denied any
opportunity to demonstrate that a longstanding
restriction is invalid, because the two-step test treats
longstanding restrictions as immune from challenge,
as though Justice Scalia had declared them
“conclusively lawful.”
Additionally, by some applications of the two-step
test, the Ninth Circuit is itself able to limit the scope
of the Second Amendment to what it believes to be the

9
“core” right that Heller protected. If the challenged
restriction does not impede the “core” right, circuit
court judges can follow their personal views and
determine the activity deserves no protection. Like
other circuit courts which use the two-step, the Ninth
Circuit finds the Second Amendment’s core right to be
identical to the facts of the Heller decision, as read in
the most narrow possible manner. As the Ninth
Circuit explains, “Heller held that an outright ban of
firearms in the home violates the Second
Amendment.... The extent to which the Second
Amendment protects the right to keep and bear arms
outside the home is less clear.” Young, 992 F.3d at
782-83 (emphasis added). On the contrary, the word
“bear” is just as plain and clear as the word “keep.”
Since bearing a firearm outside the home is apparently
not part of this purported core right identified by the
Ninth Circuit, which is limited to the home, it is thus
up for grabs — depending on how the judge personally
may feel about firearms.
To be sure, the Ninth Circuit opinion recognized
that Heller tied “the Second Amendment to the need to
defend one’s self [implying] that some right to bear
arms may exist outside the home.” Young, 992 F.3d at
783 (emphasis added). The court also recognized that
the McDonald decision identified “that [s]elf-defense
is a basic right [and] ... the central component of the
Second Amendment right....” Id. (internal quotation
marks omitted) (bold added). However, the Ninth
Circuit chose to disregard what this Court twice
identified as the central component of the Second
Amendment, finding it not relevant as “Young’s
challenge to Hawai’i’s restrictions fails at step one of

10
our framework and ‘may be upheld without further
analysis.’” Id. at 826 (citation omitted). In a battle
between the text and “judge-empowering ‘interestbalancing’” (Heller at 634) two-step test, the test won
yet again.
As the two-step test used below allows the Second
Amendment text to be ignored, in violation of Heller
and McDonald, it requires review by this Court and
cannot be allowed to stand.
II. HAWAII’S CARRY BAN IS, INDEED,
“LONGSTANDING,” DATING TO THE
ISLANDS’ TIME AS A MONARCHY, WHEN
SOVEREIGN KINGS AND QUEENS DENIED
THEIR SUBJECTS ACCESS TO ARMS.
The Ninth Circuit triumphantly declared that
“Hawai’i law began limiting public carriage of
dangerous weapons, including firearms, more than 150
years ago.... Hawaii enacted its first statutory
regulation of public carry in 1852.” Young, 992 F.3d at
773. In fact, the central issue decided by the en banc
court was that the Hawaii statute was a longstanding
restriction, and thus — according to its skewed
reading of Heller — not even subject to a Second
Amendment challenge.
Among the many reasons to believe that the
Hawaii longstanding restriction could never be
considered self-validating is the fact that its pedigree
is badly tainted. For most of Hawaii’s history, the
island nation had no republican form of government —
rather, it was a monarchy, ruled by kings and queens.

11
Even after later transitioning to a constitutional
monarchy, the Kingdom of Hawaii Constitution of
18402 did not recognize a right of the people to bear
arms. Quite to the contrary, it declared unequivocally
that the “four Governors over these Hawaiian Islands
... shall have charge of ... the arms and all the
implements of war.” Kingdom of Hawaii Constitution
of 1840, “Governors.” Consistent with an exclusive
claim to arms, the 1840 Constitution declared that the
king “is the sovereign of all the people and all the
chiefs.” Id., “Prerogatives of the King.”
The Hawaii stranglehold on arms was easy to
accomplish, since native Hawaiians had no experience
with firearms prior to the arrival of Europeans in the
late 1700s. Indeed, traders and settlers selectively
doled out firearms in order to “unite[] Hawaii’s eight
main islands into a single kingdom [under]
Kamehameha I....”3 Thereafter, native Hawaiians
continued to be disarmed, as more and more settlers
arrived, with generally only the European-installed
government (and select Caucasian inhabitants) being
permitted to possess arms.4 The monopoly on arms
was later used to solidify American control over the
2

See http://www.hawaii-nation.org/constitution-1840.html.

3

J. Greenspan, “Hawaii’s Monarchy Overthrown with U.S.
Support, 120 Years Ago,” History.com (Jan. 17, 2013).
4

See, e.g., “Odd Fighting Units: The Honolulu Rifles during the
Hawaii Rebellions, 1887-1895,” Brainexplor Blog (“The downfall
of both the Kingdom of Hawaii and the independent Hawaiian
republic in 1893 & 1895 respectively were both directly linked to
actions of the Honolulu Rifles brigade.”).

12
Hawaiian Islands through the “Bayonet Constitution”
of 1887.5
This is hardly a noble pedigree to apply when
determining the right of a sovereign people to keep and
bear arms as a bulwark against tyranny. See Heller at
598. Rather, Hawaii’s monarchial history undermines
its claims, making it an extreme outlier among the
states — embracing a view of its rulers and people that
was utterly rejected by our Declaration of
Independence and the Constitution of 1787.
It was (i) not until 1898 that the United States
annexed Hawaii as a territory, (ii) not until 1950 that
the current state constitution was adopted (including
language mirroring the Second Amendment),6 and
(iii) not until 1959 that Hawaii was granted statehood
— more than a century after California, whose laws
the Court examined in Peruta v. Cnty. of San Diego,
824 F.3d 919 (9th Cir. 2016). In short, Hawaii’s
history on firearm regulation is utterly irrelevant here.
Rather than being embraced as “longstanding” and/or
“presumptively lawful,” Hawaii’s antiquated firearms
regulatory scheme should be rejected out of hand — a
relic of history, not unlike the sovereign prerogatives
5

“July 6, 1887: Bayonet Constitution,” National Geographic
(“The guns surrounding Kalakaua on that fateful day belonged to
members of a militia nicknamed the Honolulu Rifles, made up
largely of white settlers. Kalakaua’s successor as monarch, his
sister Liliuokalani, later speculated Kalakaua would have been
killed had he not signed the new constitution.”)
6

See HRS Const. Art. I, § 17; see also State v. Mendoza, 920 P.2d
357, 362 (Ha. 1996).

13
of King George, against which this country’s Second
Amendment was designed to protect.7 This Court
should decline the government of Hawaii’s invitation
to embrace its racist history of disarmament of persons
like Plaintiff, “who is part native Hawaiian and part
descendant of Japanese plantation workers....”8 Yet
this is the longstanding history on which the Ninth
Circuit relied to blithely dismiss the challenge
“‘without further analysis.’” Young, 992 F.3d at 826.9
III. THE PETITION RAISES AN IMPORTANT
ISSUE NOT BEING ADDRESSED IN NEW
YORK STATE RIFLE & PISTOL
ASSOCIATION V. CORLETT.
The Petition for Certiorari presents two questions:
7

The Ninth Circuit seemed unable to distinguish between the
powers of a monarch and the powers of a constitutionally limited
Republic. It argued: “[t]he states, in place of the king, assumed
primary responsibility for maintaining the ‘king’s peace,’” and
“carrying of weapons in public areas was an affront to the king’s
authority.” Young, 992 F.3d at 815-16. From this, the court
appears to argue, free citizens of the United States would have no
more rights than subjects of the British Crown. Id.
8

D. Trotta, “Unlikely pair could usher gun rights case to U.S.
Supreme Court,” Reuters (Aug. 8, 2018).
9

Should certiorari be granted, there will be time enough to
explore other curiosities of the Ninth Circuit decision, such as its
view that since some colonies mandated the bearing of arms out
of the home, once can conclude that those colonies also possessed
the power to prohibit the bearing of arms. Young, 992 at 796.
By this argument, the requirement that members of the militia
come armed to muster on the Village Green would have forever
undermined the “bear arms” constitutional text.

14
1. Whether the Ninth Circuit erred in holding,
in direct conflict with the holdings of the First,
Seventh and D.C. Circuits, that the Second
Amendment does not apply outside the home at
all.
2. Whether the denial of petitioner’s
application for a handgun carry license for selfdefense violated the Second Amendment. [Pet.
Cert. at i (emphasis added).]
This case has been working its way up to this
Court for almost nine years, as the complaint was filed
on June 12, 2012. The Ninth Circuit completed its
work with the issuance of its en banc decision on
March 24, 2021. As sometimes happens, as the
Petition for Certiorari was being prepared in this case,
this Court granted certiorari on April 26, 2021 in a
similar case — New York State Rifle & Pistol Ass’n v.
Corlett, No. 20-843 (“NYSRPA”). However the order
granting review limited this Court’s review to a
licensing issue:
Whether the State’s denial of petitioners’
applications for concealed-carry licenses for
self-defense violated the Second Amendment.
[Emphasis added.]
This Court declined to address a broader question
raised by NYSRPA, which was:
Whether the Second Amendment allows the
government to prohibit ordinary law-abiding
citizens from carrying handguns outside the
home for self-defense. [Emphasis added.]

15
While it is impossible at this time to know what
will be the scope of this Court’s decision in the
NYSRPA case, these amici urge this Court either to
grant this Petition for Certiorari, or, failing that, to
defer consideration of this Petition until after the
NYSRPA case is argued and decided. If this Court’s
decision in that case remains limited to the issue of the
denial of the issuance of a license, these amici believe
that the Court should grant certiorari here to resolve
the more fundamental issue as to whether the Second
Amendment has any application outside the home and,
if it does, whether a state may deny a citizen the right
to carry a firearm for self-defense outside the home.
IV. FOUR SITTING JUSTICES AND OTHER
JUDGES HAVE AFFIRMED THE
PROTECTIONS AFFORDED BY THE
SECOND AMENDMENT AND EXPRESSED
DISSATISFACTION WITH THE TWO-STEP
TEST EMPLOYED BELOW.
It is the belief of these amici that this case would
be a good vehicle to determine the application of the
Second Amendment outside the home, as it was
argued by the Petitioner based on sound principles
according to Heller and McDonald. Moreover, the fact
that the lower courts have not been faithful to this
Court’s 2008 and 2010 decisions has been repeatedly
recognized by members of this Court.

16
A. Criticism of the Two-Step
Supreme Court Justices.

Test

by

In Heller and again in McDonald, this Court
refused to treat the Second Amendment “as a secondclass right, subject to an entirely different body of
rules than the other Bill of Rights guarantees....”
McDonald at 780. However, that is exactly what the
Ninth Circuit’s two-step test does, violating judges’
duty to act consistently with this Court’s last word on
the subject — its decisions in Heller and McDonald.
So egregious is the Ninth Circuit’s departure from this
Court’s holdings that for the last six years, four sitting
justices have gone out of their way to comment about
the need to bring the Second Amendment
jurisprudence of certain lower federal courts back into
line.
In 2015, this Court declined to review San
Francisco’s highly restrictive requirement that a
handgun in a home must be stored in a gun safe when
it is not physically on the person. Justices Thomas
and Scalia dissented from this Court’s denial of
certiorari, explaining that “Second Amendment rights
are no less protected by our Constitution than other
rights enumerated in that document” and that,
“[d]espite the clarity with which we described the
Second Amendment’s core protection for the right of
self-defense, lower courts ... have failed to protect it.”
Jackson v. City & Cnty. of San Francisco, 576 U.S.
1013, 1014 (2015). Disagreeing with the Ninth
Circuit’s “tiers-of-scrutiny analysis,” the dissenters
noted that the Court should have granted the petition
“to reiterate that courts may not engage in this sort of

17
judicial assessment as to the severity of a burden
imposed on core Second Amendment rights.” Id. at
1016-17.
Later in 2015, Justices Thomas and Scalia once
again dissented from a denial of certiorari from a
Seventh Circuit decision upholding an Illinois city’s
ban on so-called “assault weapons.” Justice Thomas
criticized the Seventh Circuit’s “crabbed reading of
Heller,” which left the Circuit “free to adopt a test for
assessing firearm bans that eviscerates many of the
protections recognized in Heller and McDonald.”
Friedman v. City of Highland Park, 577 U.S. 1039,
1041 (2015). The dissent reiterated that “Heller ...
forbids subjecting the Second Amendment’s ‘core
protection ... to a freestanding “interest-balancing”
approach.’” Id. at 1042 (quoting Heller at 634). And
the dissent pointed out the disparity of treatment that
the Second Amendment has received: “The Court’s
refusal to review a decision that flouts two of our
Second Amendment precedents stands in marked
contrast to the Court’s willingness to summarily
reverse courts that disregard our other constitutional
decisions.” Id. at 1043 (citing several summary
reversals).
Also, in 2011, while still a circuit court judge,
Justice Kavanaugh explained that he would have
struck down the District of Columbia’s modified gun
regulation scheme because “Heller and McDonald
leave little doubt that courts are to assess gun bans
and regulations based on text, history, and tradition,
not by a balancing test such as strict or intermediate
scrutiny.” Heller v. District of Columbia, 670 F.3d

18
1244, 1271 (D.C. Cir. 2011) (Kavanaugh, J.,
dissenting). Justice Kavanaugh emphasized his
reliance on “text, history, and tradition,” an
understanding that has come to be viewed as the test
which embodies the Scalia opinion for the Court, while
the two-step test used by the Ninth Circuit reflects
Justice Breyer’s dissent in Heller.10
In 2017, Justices Thomas and Gorsuch dissented
from denial of certiorari of an en banc decision from
the Ninth Circuit which had sua sponte granted
rehearing en banc after a panel of that court faithfully
applied the text, history, and tradition of the Second
Amendment to find California’s “good cause”
requirement for concealed carry permits to be
unconstitutional. Peruta v. California, 137 S. Ct. 1995,
1996-97 (2017). The en banc court reversed, finding
that the Second Amendment does not protect carrying
firearms concealed in public. Id. Justice Thomas’s
dissent addressed “a distressing trend: the treatment
of the Second Amendment as a disfavored right.” Id.
at 1999. Justice Thomas observed that, from the
McDonald decision to the denial of certiorari in Peruta,
the Court had granted review in about 35 cases
involving the First Amendment and 25 cases involving
the Fourth Amendment, but none involving the Second
Amendment. Id.

10

See Allen Rostron, “Justice Breyer’s Triumph in the Third
Battle over the Second Amendment,” 80 GEO. WASH. L. REV. 703
(2012) (“[T]he lower courts’ decisions strongly reflect the
pragmatic spirit of the dissenting opinions that Justice Stephen
Breyer wrote in Heller and McDonald.”)

19
In 2018, Justice Thomas once again dissented from
a denial of certiorari to review another decision of the
Ninth Circuit. See Silvester v. Becerra, 138 S. Ct. 945
(2018). His dissent found that the Ninth Circuit’s
decision upholding a 10-day waiting period for firearm
purchases to be “symptomatic of the lower courts’
general failure to afford the Second Amendment the
respect due an enumerated constitutional right,” and
that “[i]f a lower court treated another right so
cavalierly, I have little doubt that this Court would
intervene.” Id. at 945. The dissent again stressed that
“the lower courts are resisting this Court’s decisions in
Heller and McDonald and are failing to protect the
Second Amendment to the same extent that they
protect other constitutional rights,” and added that the
Court’s “continued refusal to hear Second Amendment
cases only enables this kind of defiance.” Id. at 950-51.
Justice Thomas noted the curiosity that “rights that
have no basis in the Constitution receive greater
protection than the Second Amendment, which is
enumerated in the text.” Id. at 951. “The right to keep
and bear arms is apparently this Court’s constitutional
orphan. And the lower courts seem to have gotten the
message.” Id. at 952.
In Rogers v. Grewal, 140 S. Ct. 1865 (2020),
Justices Thomas and Kavanaugh dissented from the
denial of a petition for certiorari, observing: “[i]n the
years since [Heller and McDonald], lower courts have
struggled to determine the proper approach for
analyzing Second Amendment challenges....” and
“many courts have resisted our decisions.... ” Id. at
1866 (Thomas, J., dissenting). Not the least of the
“numerous concerns” raised by the “two-step inquiry”

20
is that the test “appears to be entirely made up. The
Second Amendment provides no hierarchy of ‘core’ and
peripheral rights.” Id. at 1867.
Last year, when this Court dismissed New York
State Rifle & Pistol Association v. New York, 140 S.
Ct. 1525 (2020) based on mootness, Justice Kavanaugh
concurred, but noted: “I share Justice Alito’s concern
that some federal and state courts may not be properly
applying Heller and McDonald. The Court should
address that issue soon.” Id. at 1527 (Kavanaugh, J.,
concurring).
Justice Alito, dissenting from the
dismissal and joined by Justices Thomas and Gorsuch,
concluded, “I believe we should” rule in the case, and
“hold, as petitioners request ... that [the challenged
statute] violated petitioners’ Second Amendment
right.... We are told that the mode of review in this
case is representative of the way Heller has been
treated in the lower courts. If that is true, there is
cause for concern.” Id. at 1535, 1544 (Alito, J.,
dissenting).
B. Criticism of the Two-Step Test by Lower
Court Judges.
Robust criticism of the two-step test has also come
from some lower court judges. When the Ninth Circuit
upheld the ban on firearms possession by an individual
who had been convicted of a misdemeanor crime of
domestic violence11 in Fisher v. Kealoha, 855 F.3d 1067
(9th Cir. 2017), Judge Kozinski concurred in the per

11

See 18 U.S.C. § 922(g)(9).

21
curiam decision, but issued a separate “ruminating”
opinion to encourage equal treatment of the Second
Amendment among the Bill of Rights:
In other contexts, we don’t let constitutional
rights hinge on unbounded discretion [of a
governor’s pardon]; the Supreme Court has
told us, for example, that “[t]he First
Amendment prohibits the vesting of such
unbridled discretion in a government official.”
Despite what some may continue to hope, the
Supreme Court seems unlikely to reconsider
Heller. The time has come to treat the
S e c o n d A m e n dm e n t a s a r e a l
constitutional right. It’s here to stay.
[Fisher at 1072 (Kozinski, J., ruminating)
(emphasis added) (citation omitted).]
Although the Fifth Circuit also uses the two-step
test, many judges on that court disagree with interest
balancing in the Second Amendment context. See
Houston v. City of New Orleans, 675 F.3d 441, 448
(5th Cir. 2012) (Elrod, J., dissenting), opinion
withdrawn and superseded on reh’g, 682 F.3d 361 (5th
Cir. 2012) (per curiam); NRA v. BATFE, 714 F.3d 334
(5th Cir. 2013) (six judges dissenting from a denial of
rehearing en banc). When the Fifth Circuit once again
denied rehearing en banc in a Second Amendment case
involving a challenge to the residency requirement for
firearms purchases from federally licensed firearms
dealers,12 seven judges vigorously dissented from the

12

See 18 U.S.C. §§ 922(a)(3) and 922(b)(3).

22
denial of rehearing, explaining, “[s]imply put, unless
the Supreme Court instructs us otherwise, we should
apply a test rooted in the Second Amendment’s text
and history — as required under Heller and McDonald
— rather than a balancing test like strict or
intermediate scrutiny.” Mance v. Sessions, 896 F.3d
390, 394 (5th Cir. 2018) (Elrod, J., dissenting). Also,
Judge Willett commented on the judicial hostility to
the Second Amendment:
Constitutional scholars have dubbed the
Second Amendment “the Rodney Dangerfield
of the Bill of Rights....”
The Second Amendment is neither second
class, nor second rate, nor second tier. The
“right of the people to keep and bear Arms”
has no need of penumbras or emanations. It’s
right there, 27 words enshrined for 227 years.
[Id. at 396 (Willett, J., dissenting).]
CONCLUSION
For the reasons stated above, the Petition for a
Writ of Certiorari should be granted, or held in
abeyance pending this Court’s decision in New York
State Rifle & Pistol Association v. Corlett.

23
Respectfully submitted,
WILLIAM J. OLSON*
ROBERT J. OLSON
JEREMIAH L. MORGAN
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
June 24, 2021
wjo@mindspring.com
*Counsel of Record Attorneys for Amici Curiae

